                   U.S. ELECTION ASSISTANCE
                          COMMISSION
                   OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                  REVIEW OF THE ADMINISTRATION OF
                 PAYMENTS RECEIVED UNDER THE HELP
                 AMERICA VOTE ACT BY THE OFFICE OF
                 THE ATTORNEY GENERAL, NEW JERSEY
                   DEPARTMENT OF LAW AND PUBLIC
                              SAFETY




Report No.
E-HP-NJ-04-06
September 2006
                          U.S. ELECTION ASSISTANCE COMMISSION
                                 OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                        Washington, DC 20005


                                                                       September 18, 2006

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Review of the Administration of Payments Received Under the Help America
           Vote Act by the Office of the Attorney General, New Jersey Department of
           Law and Public Safety (Assignment No. E-HP-NJ-04-06)

       This report presents the results of the subject review, which was initiated by the
Office of Inspector General. The objective of the review was to assess New Jersey’s
administration of Help America Vote Act (HAVA) funds and compliance with certain
HAVA requirements.

        We found that New Jersey needs to improve its administrative procedures and/or
processes for supporting salary allocations, charging fringe benefits, recovering indirect
costs, and accounting for property. Also, we determined that the state complied with
HAVA requirements for establishing an election fund, for appropriating sufficient state
funds to qualify for its allocation of requirements payments, and for maintaining
expenditures for elections by the New Jersey Office of Attorney General at least equal to
amounts spent in fiscal year 2000. However, the State needs to obtain support from its
counties, which according to the State Plan bear the “bulk of fiscal responsibilities” for
elections, to ensure that they are also keeping up their rates of spending.

       In a May 8, 2006, response to a draft of this report (Attachment 1), the State
agreed with our findings and indicated that corrective action had already taken place or
was underway.

         The report also presents information, in the other matters section, on New Jersey
voter outreach efforts pertaining to two Hip-Hop events that were funded with HAVA
Title I funds. Theses events were brought to our attention by the Election Assistance
Commission prior to our review and we present this information for your use in
determining appropriate uses of HAVA funds.
       Since the Commission did not respond to the draft of this report, the
recommendations are considered unresolved. Please provide us with your written
comments to the report findings by October 25, 2006. Specifically, your comments
should indicate whether you agree or disagree with the results of the review. Your
response should also indicate the basis and support for any disagreement

       Section 5(a) of the Inspector General Act (5 U.S.C. § App. 1) requires the Office
of Inspector General (OIG) to list this report in its semiannual report to Congress.

       If you have any questions regarding this report, please call me (202) 566-3121.
                          BACKGROUND

HELP AMERICA              The Help America Vote Act of 2002 (HAVA) created the U.S.
VOTE ACT                  Election Assistance Commission (EAC or Commission) to assist states
                          and insular areas1 with the administration of Federal elections and to
                          provide funds to states to help implement these improvements. HAVA
                          authorizes payments to states under Titles I and II, as follows:

                              9 Title I, Section 101 payments are for activities such as
                                complying with HAVA requirements for uniform and
                                nondiscriminatory election technology and administration
                                requirements (Title III), improving the administration of
                                elections for Federal office, educating voters, training election
                                officials and poll workers, and developing a state plan for
                                requirements payments authorized by Title II.

                              9 Title I, Section 102 payments are available only for the
                                replacement of punchcard and lever action voting systems.

                              9 Title II, Section 251 requirements payments are for complying
                                with Title III requirements for voting system standards; and
                                addressing provisional voting, voting information, statewide
                                voter registration lists, and voters who register by mail.

                          Title II also requires that states must:

                              9 Have appropriated funds “equal to 5 percent of the total amount
                                to be spent for such activities [activities for which requirements
                                payments are made].” (Section 253(b)(5)).

                              9 “Maintain the expenditures of the State for activities funded by
                                the [requirements] payment at a level that is not less than the
                                level of such expenditures maintained by the State for the fiscal
                                year ending prior to November 2000.” (Section 254 (a)(7)).

                              9 Establish an election fund for amounts appropriated by the state
                                for “for carrying out the activities for which the requirements
                                payment is made,” for the Federal requirements payments
                                received, for “such other amounts as may be appropriated under
                                law,” and for “interest earned on deposits of the fund.” (Section
                                254 (b)(1)).



1
    The Commonwealth of Puerto Rico, Guam, American Samoa, and the United States Virgin Islands.
                                                   1
FUNDING FOR    HAVA funds received and expended by New Jersey are as follows:
NEW JERSEY
                  TYPE OF           AMOUNT                 OUTLAYS
                  PAYMENT          RECEIVED           AMOUNT       AS OF

                  101                 $8,141,208        $2,856,979    12/31/05
                  102                 $8,695,609        $8,695,609    12/31/05
                  251                $68,067,586        $5,218,518    09/30/05

                  Totals             $84,904,403       $16,771,106

               In New Jersey, HAVA payments are administered by the Office of the
FINANCIAL      Attorney General (OAG). To account for the payments, HAVA
MANAGEMENT     requires states to maintain records that are consistent with sound
REQUIREMENTS   accounting principles, that fully disclose the amount and disposition of
               the payments, that identifies project costs financed with the payments
               and with other sources, and that will facilitate an effective audit.

               In addition, the Commission notified states of other management
               requirements. Specifically, that states must:

                  9 Comply with the Uniform Administrative Requirements for
                    grants and cooperative agreements with state and local
                    governments (also known as the “Common Rule” and
                    published in 41CFR105-71).

                  9 Expend payments in accordance with cost principles for
                    establishing the allowability or unallowability of certain items
                    of cost for federal participation issued by the Office of
                    Management and Budget in Circular A-87.

                  9 Follow the requirements of the Federal Cash Management and
                    Improvement Act.

                  9 Submit annual financial reports on the use of Title I and Title II
                    payments.

OBJECTIVE      The objective of our review was to assess New Jersey’s administration
               of HAVA funds and compliance with certain HAVA requirements.
               Specifically, we focused on fiscal year 2005 and reviewed controls to
               assess their adequacy over the expenditure of HAVA funds and
               compliance with certain HAVA requirements for the following
               activities:

                  9 Accumulating financial information reported to EAC on the
                    Financial Status Reports (Standard Forms number 269).
                  9 Accounting for property.

                                      2
              9   Purchasing goods and services.
              9   Accounting for salaries.
              9   Charging indirect costs.
              9   Spending by counties.

           We also determined whether New Jersey had complied with the
           requirements in HAVA for:

              9 Establishing and maintaining the election fund.
              9 Appropriating funds equal to five percent of the amount
                necessary for carrying out activities financed with Section 251
                requirements payments.
              9 Sustaining the State’s level of expenditures for elections.

           RESULTS OF REVIEW

SUMMARY    We found that the OAG needs to improve its procedures and/or
           processes for supporting salary allocations, charging fringe benefits,
           recovering indirect costs, accounting for property, and tracking county
           election expenditures. In addition, we found that the state complied
           with HAVA requirements for the election fund and for appropriating
           sufficient state funds to qualify for its allocation of requirements
           payments. Finally, we noted that improvements are also needed to
           document that counties, which according to the State Plan bear the
           “bulk of fiscal responsibilities” for elections, are spending an amount
           for elections at least equal to the amounts spent in fiscal year 2000.

SALARIES   OAG paid all or a portion of certain employee salaries with state funds
           appropriated to match its allocation of requirements payments.
           However, the OAG did not keep records adequate to substantiate the
           amount of time theses employees worked on HAVA-related activities.
           In fiscal year 2005, salaries of $ 405,890 were paid with state matching
           funds.

           Office of Management and Budget Circular A-87 states that salaries
           and wages of employees used in meeting cost sharing or matching
           requirements of Federal awards must be supported in the same manner
           as those claimed as allowable costs under Federal awards (Attachment
           B 8.h.(7)). Circular A-87 requires salaries and wages to be supported
           in the following manner.

               Where employees are expected to work solely on a single
               Federal award or cost objective [100 percent], charges for
               their salaries and wages will be supported by periodic
               certifications that the employees worked solely on that

                                 3
                                program for the period covered by the certification. These
                                certifications will be prepared at least semiannually and will
                                be signed by the employee or supervisory official having first
                                hand knowledge of the work performed by the employee.
                                (Attachment B 8.h.(3)).

                                Where employees work on multiple activities or cost
                                objectives [less than 100 percent], a distribution of their
                                salaries or wages will be supported by personnel activity
                                reports or equivalent documentation . . . (Attachment B 8.h.
                                (4)).

                          The HAVA administrator agreed to implement, as soon as reasonably
                          possible, the following recommendations:

                                1. Require staff who are assigned fulltime to HAVA projects to
                                complete semiannual certifications that they worked only on
                                HAVA activities.

                                2. Require staff who work on multiple projects during any pay
                                period and who will be funded with HAVA or state matching
                                funds to complete a personnel activity report that identifies to the
                                nearest hour the projects on which he/she worked. The time sheet
                                should account for all hours in the pay period, separately identify
                                HAVA-related hours, and be signed by the employee and the
                                supervisor.

FRINGE                    OAG under charged for fringe benefits. The state recorded fringe
BENEFITS                  benefit costs of $8,623 to its matching funds in fiscal year 2005. In
                          comparison, application of the approved benefit rate of 33.25 percent2
                          to fiscal year 2005 salary charges of $405,890 results in fringe benefit
                          costs of $134,958.

                          Salary costs were first recorded elsewhere in the accounting records
                          and then charged to the state matching funds through several salary
                          adjustments to the accounting records. However, the adjustments did
                          not include the proper charges for associated fringe benefits.

                          In response to our recommendations, the HAVA Administrator agreed
                          to ensure that:

                                1. Fringe benefits are charged on the basis of the approved fringe
                                benefit rates.

2
  The New Jersey Department of the Treasury negotiated with the U.S. Department of Health and Human
Services a fringe benefit rate of 25.60 percent plus a rate of 7.65 percent for FICA and Medicare for a total
of 33.25 percent. The rates are applicable to fiscal year 2005 base salaries.
                                                      4
                               2. The accounting records for prior periods are adjusted to
                               properly record the fringe benefits associated with the HAVA
                               program.

INDIRECT COSTS OAG incorrectly charged a portion of the salaries of certain staff in its
                          Division of Administration and Support Services to its state matching
                          funds. This was incorrect because the costs of the Division of Fiscal
                          Services are contained in the indirect cost pool which the OAG used to
                          compute it’s approved indirect cost rates.3 Thus, based on how the
                          rate was computed, we concluded that the OAG intended to recover the
                          costs of the Division of Administration and Support Services through
                          application of the approved indirect cost rate and not as a direct charge
                          to the HAVA programs.

                          OAG did not charge indirect costs to the state matching funds or to the
                          HAVA funds. Had it done so, it would have recovered its share of the
                          cost of the Division twice - once as a direct charge and again as an
                          indirect charge.

                          The HAVA Administrator told us that to recover the cost of
                          administrative support provided by the Division, he conservatively
                          estimated the Division’s support to the HAVA program.

                          We believe that indirect costs should be recovered in accordance with
                          the approved indirect cost rate. Management agreed, and based on our
                          recommendations planned to:

                               1. Remove the salaries of Division of Fiscal Services staff from
                               the direct charges to the states matching fund. (The state,
                               however, decided not to charge indirect costs to its matching
                               funds, which is its prerogative.)

                               2. Charge to the HAVA 101 and 251 funds the appropriate indirect
                               costs based on the approved indirect cost rates.

PROPERTY                  Inventories of equipment purchased with HAVA funds did not contain
                          all the elements required by Federal and State requirements for the
                          management of property. The elements required by the Common Rule
                          (41CFR 105-71.132 (d)(1)) and New Jersey Office of Management and
                          Budget Circular 91-32 are as follows:



3
  The Department has negotiated indirect cost rates with the U.S. Department of Justice of 3.84 percent for
fiscal year 2003, 4.69 percent for fiscal year 2004, 2.95 percent for fiscal year 2005, and 2.44 percent for
fiscal year 2006. The rates are applicable to total direct costs of the HAVA program, less funds passed
through to counties.
                                                     5
                                                                REQUIREMENTS
                               DESCRIPTION                    FEDERAL    STATE

                   Description of the property                 9            9
                   Serial or other identification number       9            9
                   Source of the property                      9
                   Source of the monies used to acquire
                                                                            9
                   property
                   Percentage of Federal participation         9
                   Who holds title                             9
                   Acquisition date                            9            9
                   Cost of the property                        9            9
                   Location                                    9            9
                   Use and condition                           9
                   Organizational unit charged with custody                 9
                   Ultimate disposition data                   9

               The State maintained several inventories of HAVA property. For
               example, one inventory lists voting machines located in counties; there
               also is a statewide voter registration system inventory of computer
               software, hardware, and peripheral equipment such as label writers,
               barcode readers, and scanners, located in counties, the contractor’s
               hosting and backup facilities, and the OAG’s Division of Elections;
               and another inventory identifies information technology equipment
               such as computers and computers and printers. Generally, all the
               inventories identified the name, serial number, and location of each
               item, but not the other required elements.

               In response to our recommendations, management agreed to ensure
               that all inventory data bases, including inventories that will be
               maintained by counties after the State transfers title of property to
               them, will include the information required by the Common Rule and
               the New Jersey Circular.

COUNTY         New Jersey lacks a mechanism to determine whether counties, in using
ELECTION       Section 251 requirements payments, were maintaining a level of
               expenditure of county funds at least equal to the level they expended in
EXPENDITURES
               fiscal year 2000.

               HAVA requires (Section 254 (a)(7)) that the State Plan explain “How
               the State, in using the requirements payment, will maintain the
               expenditures of the State for activities funded by the payment at a level
               that is not less than the level of such expenditures maintained by the
               State for the fiscal year ending prior November 2000.” Section Seven
               of New Jersey’s State Plan says that to satisfy this requirement, “all
               counties and the State must maintain at a minimum the level of
               operating expenses for elections that was incurred in fiscal year 2000,
               in addition to any federal funding received.”

                                        6
           We found that the state was meeting this requirement but that it did not
           have information on county expenditures for elections. During our exit
           conference, New Jersey officials advised that they believed counties
           were more than satisfying this requirement and that that they planned
           to execute written agreements with the counties that would include
           provisions for documenting county compliance.


           OTHER MATTERS

VOTER      The New Jersey “Be Powerful, Be Heard” voter outreach and
OUTREACH   education initiative included two hip-hop summits primarily for high
           school and college students. Prior to the start of our review, EAC
           provided us with a newspaper article which suggested that the use of
           Federal funds to finance the events may not have been appropriate.

           Based on information produced by New Jersey, we learned that it
           worked in conjunction with the Hip-Hop Summit Action Network to
           convene a summit in September 2004 prior to the November general
           election and in September 2005 before the November Gubernatorial
           election. The summits were interactive panel discussions between
           artists such as Reverend Run and Doug E. Fresh and community and
           voter activists about the importance of voting and issues of concern to
           young voters. The summits included questions and answers from the
           audience which consisted principally of high school students. The
           events were also available to high schools and colleges throughout the
           state via web casts. The summits may be viewed online by visiting the
           Office of the Attorney General’s New Jersey HAVA home page at
           www.state.nj.us/lps/elections/hava_intro.html.

           According to New Jersey, about 2,000 students attended the first
           summit and voter registration forms and educational materials were
           mailed to the schools before the event. New Jersey estimated that
           approximately 4,000 students attended the second event and voter
           registration packets and educational materials were provided to the
           schools at the event for later classroom use. According to an Office of
           Attorney General official, voter registration tables were set up at the
           summits and that “several hundred” registrations were taken, excluding
           those mailed to the county commissioners of registration. In New
           Jersey, you can register to vote at the age of 17 as long as you will be
           18 years old by the next election.

           Based on financial records maintained by the OAG HAVA unit, New
           Jersey used Section 101 funds of $131,924 to pay for the summits. A
           breakdown of the costs between the two summits follows:


                                 7
                                                                            COSTS
                             DESCRIPTION               SUMMIT I            SUMMIT II              TOTAL

                           Busing Students                    $6,155             $19,430            $25,585
                           Meals/Refreshments                 12,515              26,414             38,929
                           Production*                        25,143              42,267             67,410

                           Totals                             43,813              88,111            131,924

                           *Production covers the cost of activities such as event production, facilities
                           rental, web casting, and sign language.

                        According to HAVA (Section 101 (b)(1)(B) and (C), activities for
                        which Section 101 funds may be used for include:

                                “Improving the administration of elections for Federal office”
                                and

                                 “Educating voters [which EAC has concluded4 includes those
                                eligible to vote] concerning voting procedures, voting rights,
                                and voting technology.”

                        This information is presented for your use in determining the
                        appropriate use of HAVA funds.


                        RECOMMENDATIONS

                        We recommend that the Executive Director, EAC:

                         1. Ensure that New Jersey implements the agreed-upon
                            recommendations and incorporates into agreements with counties
                            an appropriate provision for verifying county compliance with the
                            base level expenditure requirement.

                         2. Determine whether the voter outreach activities and costs
                            associated with the Hip-Hop summits meet the use of funds
                            criteria under Section 101 (b) of HAVA.




4
 Letter of March 15, 2006, from the Deputy General Counsel, EAC, to the HAVA Coordinator for the
State of Washington regarding “Use of HAVA 101 Funds.”
                                                   8
                                                   APPENDIX 1

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

9 The prior single audit report and other reviews related to the
  Department’s financial management systems and the HAVA
  program for the last 2 years.
9 Policies, procedures and regulations for New Jersey’s management
  and accounting systems as they relate to the administration of
  HAVA programs.
9 An organizational chart of the Division and a list of all full and
  part-time employees of the Division indicating those employees
  whose salary is financed with HAVA funds.
9 Inventory lists of all equipment purchased with HAVA funds.
9 Major purchases.
9 Supporting documents maintained in the accounting system for
  payments made with HAVA funds.
9 Support for reimbursements to counties.
9 Certain New Jersey laws that impact the election fund.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the five percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate New Jersey employees about the
organization and operation of the HAVA program.

We conducted our review in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to evaluate the Department’s controls over the
administration of HAVA payments. Because of inherent limitations, a
study and evaluation made for the limited purposes of our review
would not necessarily disclose all weaknesses in administering HAVA
payments.



                      9
     ATTACHMENT 1
          Page 1 of 3




10
     ATTACHMENT 1
          Page 2 of 3




11
     ATTACHMENT 1
          Page 3 of 3




12
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-3127


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds
